HHS/OIG-AUDIT--HHS Program Support Center, Division of Payment Management's Policies and Procedures in Operation and Tests of Operating Effectiveness (A-17-96-00011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Department of Health and Human Services, Program Support Center,
Division of Payment Management's Policies and Procedures in Operation and Tests
of Operating Effectiveness," (A-17-96-00011)
April 11, 1997
Complete
Text of Report is available in PDF format (5.3 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Department of Health and Human Services' (HHS) Division of Payment Management
(DPM) serves as the fiscal intermediary between awarding agencies and grant
or contract recipients. The DPM's Payment Management System (PMS) processes
approximately $160 billion in payments to recipient organizations per year.
The report presents the results of Ernst & Young's (E&Y), certified
public accountants, review of DPM's policies and procedures placed in operation
to fulfill this responsibility. The E&Y made the review under a HHS Office
of Inspector General (OIG) contract. The OIG exercised technical oversight and
quality control of the examination.
Specifically, the E&Y examination included procedures to obtain reasonable
assurance about whether: (1) the description of the PMS application presents
fairly, in all material respects, the aspects of HHS policies and procedures
that may be relevant to a user organization's internal control structure; (2)
the control structure policies and procedures included in the description were
suitability designed to achieve the control objectives specified in the descriptions;
and (3) such policies and procedures had been placed in operation as of November
30, 1996.
The E&Y concluded that the description of the PMS application presents
fairly, in all material respects, the relevant aspects of HHS policies and procedures
placed in operation as of November 30, 1996. Also, E&Y concluded that the
control structure policies and procedures are suitably designed to provide reasonable
assurance that the specified control objectives would be achieved. Lastly, E&Y
concluded that the control policies and procedures tested were operating with
sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified were achieved during the period April
1, 1996 to November 30, 1996.
In our oversight of the examination, we found nothing to indicate that E&Y's
work was inappropriate or that the report cannot be relied upon.
This report is intended solely for use by HHS management, its customers, and
the independent auditors of its customers.
For Fiscal Year 1997 audit planning purposes, we plan to retain E&Y to
perform a similar review covering Fiscal Year 1997 activity. We estimate that
the results of the review will be available December 1997.